CERTIFICATION:
I hereby certify that this petition for rehearing is presented in
good faith and not for delay, and that it is restricted to the
grounds specified in Supreme Court rule 44.2.

Theresa Romain (Petitioner)
Date: March 22th 2021

12

NAME OF COUNSEL

Patrick Arthur Wood (Solicitor General)
NYS State Capitol Building
Albany NY. 12224

Hon. Thomas Breslin(Admin)
2500 Pond view Suite 210
Castleton on Hudson NY 12033

Jeffrey W. Lang (Solicitor General)
Robert Abrams Building For Law and Justice
State Street Albany NY. 12223

Hon. Karen Peters (Commissioner)
2500 Pond View Suite 210
Castleton on Hudson NY 12033

Cook, Netter, Cloonan, Kurtz and Murphy P.C.
85 Main Street
C/O P. O. BOX 3939
Kingston NY 12402
Attn: Kurtz

Catherine Charuk Esq.
P. 0. Box 4011
Kingston NY 12402

Hon. Michael V. Coccoma
Supreme Court Judge
Ostego County Office Bld
197 Main Street
Cooperstown NY 13326

Justice Randall T. Eng
990 Stewart Ave
Garden City NY 11530

Joshua Koplovitz Esq
P. 0. Box 3268
Kingston NY 12402

Jill Owens Esq. Goldberg Segalla LLP
11 Martine ave Suit 750
White Plains NY 10606

Clinton G. Johnson Esq.
(Ulster County Attorney)
P. 0. Box 1800
Kingston NY 12402

John Rusk Esq.
255 Fair Street
Kingston NY 12401

Travis Davis RN (pro Se)
121 Stein Road
Pine Bush NY 12566

1.

SUPREME COURT OF THE UNITED STATES
WASHINGTON DC 20543

To:

The Clerk of the Court

From: Theresa Romain (Petitioner)
Re:

WAIVER

Date: December 18, 2020

Dear Sir„
Please be advised that today I have received waiver form with envelope dated 12/14/20
For the following defendants by their attorney Eric M. Kurtz Esq.

Michael Iapoce Esq
Patricia Jelacic Esq
Suzanne Bottigliero
Melinda Robinson
Robyn Randzin
Winnie Mc Nelis
Patricia Sangi

The Supreme Court is an expert on statute a copy may have been sent directly to the
Supreme Court by defendants attorney. I am not preview to that information.
The statute should not "provide a safe haven for frivolous or meritless lawsuits"

Thank You:

SUPREME COURT OF THE UNITED STATES
WASHINGTON DC

To:

The Clerk of The Court

From: Theresa Romain (Petitioner)
Re:

APPEARANCES VIA WAIVER

Date: December 8, 2020

Dear Sir,
Please be advised that the Petitioner has received three waivers indicating the
appearance of several defendants. They are as follows:

(a) Attorney Patrick Arthur Woods appearing for the following
Gov. Andrew Cuomo et al
Letitia James (Attorney General)
Hon. Maria G. Rosa
Hon. Randall T. Eng

(b)

Attorney Jeffrey W. Lang for
Hon. Christopher E. Cahill

(c)

Attorney Jeffrey W. Lang for
Hon. Kimberly 0' O'Connor
Carol Pressman Esq.

It will be with great honor I present the cases to you accordingly with documentation.

Thank You:

EXHIBITS FOR REHEARING CERTIORARI

COVER PAGE

State of New York Court of Appeals

Exhibit A

State of New York
Court of Appeals
Decided and Entered on the
sixteenth day of November, 2017
Present, Hon. Janet DiFiore, ChiefJudge, presiding.

Mo. No. 2017-870
Theresa S. Romain,
Appellant,
v.
Kimberly O'Connor, 'et al.,
Respondents.

leave to appeal to

Appellant having appeale
the Court of Appeals in the above
Upon the papers filed and due

ORDERED, on the Court's own motion, that the appeal
is dismissed, without costs, upon the ground that the orders
appealed from do not finally determine the action within the
meaning of the Constitution; and it is further
ORDERED, that the motion for leave to appeal is dismissed
upon the ground that the orders sought to be appealed from do not
finally determine the action within
Constitution.

4-1,
c1

meaning of the

.9.;

,4‘,„

4d4 ek -e6te4t‘

-&,4 12207-10..95

'ecided November 16. 2017
To. 'No. 2017-870
heresa S. Romain,
Appellant,
Vr

linberly O'Connor. et al..
Respondents,

Lhe Court's own motion, appeal dismissed, will:ion:
pon the around that the orders appealed from do not flna.
the action v.-ithin the meaning of the Constitution.
Metier.:or leave to appeal dismissed upon the ground That the
orders sol:alit to be appealed from do not finally determine the
frie meaning of the Constitution.
vi_ -

State of New York Appellate Division 3rd Department

Exhibit B

State of New York
Supreme Court, Appellate Division,
Third Judicial Department
Decided and Entered: June 15, 2017

522145
523363
523010
523159
523270
523364

THERESA S. ROMAIN,
Appellant,
v

DECISION AND ORDER
ON MOTION

KIMBERLY O'CONNOR et al.,
Respondents.

Motion for reconsideration and for further relief.
Upon the papers filed in support of the motion and
the papers filed in opposition
thereto, is it
ORDERED the motion is denied, without costs.
McCarthy, J. P., Lynch, Clark and Mulvey, JJ., conc

ur.

ENTER:

k

eittAt
Robert D. Mayberger
Clerk of the Court

Order denying Rehearing

Exhibit C

tAki.,vac tyc4f/A
Aectz,
62,wifrzy4,
oggirt

&Leg

December 19, 2017
ike€2.,/

20 6'4 ,/~i`
&l,/ 12207-1095
&&a424
,/,

Ms. Theresa S. Romain
P. 0. Box 415
Milton, NY 12547
Re:

Romain N' O'Connor
Mo. No. 2017-870

Dear Ms. Rornain:
i acknowledge receipt of your papers dated December 13, 2017 and
addressed to and captioned at the Appellate Division, Third Department, which are
returned to you enclosed. It appears that your papers were misfiled. The address
for the Appellate Division, Third Department, is PO Box 7288 Capitol Station,
Albany NY 12224-0288. It is not necessary or appropriate to send to this Court
copies of documents filed at other courts.
Moreover, if you intended to file your papers at the Court of Appeals to seek
a stay, please be advised that your appeal and motion for leave to appeal were
dismissed by the Court on November 16, 2017. Because no appeal or motion for
leave to appeal is pending before this Court under your name, no procedure exists
to permit the Court to entertain an application for a stay (see CPLR 5519).
Very truly yours.

Heather Davis
Deputy Clerk
RMM:mg
cc: Travis Davis
Zainah A. Chaudhry, Esq.
Robert D. Cook, Esq.
Joshua N. Koplovitz, Esq.
Catherine Charuk, Esq.

J'ict:37.74so,t

State of New York
Supreme Court, Appellate Divis
ion
Third Judicial Department
Motion Department
P.O. Box 7288, Capitol Station
Albany, NY 12224-0288
(518) 471-4779
fax (518) 471-4747
attp://liww.rtycourts.go....

ReEert D. A,tavberger
Cerk of the Court

August 3. 2017

Edward.). Carey
Chief .N.fotion Attorney'

Theresa Romain
28 Woodcrest Lane — PO Bo
x 415
Milton. NY 12547
Re: #r 5221451523363/523
010/523

270/523159/523364 — Roma

in v O'Connor et al.

Dear Madam:

This will acknowledge receip
t of a document dated July 24
. 2017 in the abovereferenced matter.
In the document you state tha
t you are awaiting your "prev
ious relief' that you had
requested and which this Co
urt denied by order dated Jun
e
15. 2017. You also state that
the Court's order was "inconsi
stent with laws." Please be ad
vised that, unless you make
formal motion on notice to yo
a
ur adversaries, seeking whate
ver relief you appear to be
requesting by way of your do
cument dated July 24. 2017,
no further action will be taken
by the Court in regard to its
June 15. 2017 order. Enclosed
herewith is a motion form tha
you may use for whatever rel
t
ief you are looking for.
In light of the above set forth.
please be advised that no fur
ther action will be taken
in recaard to your document da
ted July 24. 2017 unless you
advise to the contrary.
trul\

VOUPS.

Linda ;6allo
Principal Attorney
enclosure
cc: Attorney General Eric T.
Schneiderman
Robert D. Cook. Esq.
Travis Davis

Extension of time to file Writ of Certiorari

Exhibit D

SUPREME COURT OF THE UNITED STATES
OFFICE OVIIIE CL1E1C
1Nr HINGTON, DC 20543-0001•
July 31, 2018
Theresa Remain
cio•P.0, Box 415
Milton, LA .12547
Romain v. OVonnor; et at.
No. armswy
Dear Ms.. Romain:
The above-entitled petition for a writ of certiorari was origirlail,y postmarked
_February 6, 2018 and received again on July 20, 2018. -The papers are returned for the
following reason(s):
It is, returnedforthe reason(s) stated in the Ietterof June 20; 2018 from this Office:
If petitioner wishes, she may resubmit her petition(s) with a motion directing the.
Cierkofthis Court to .file it(thein.out-of-tinte, oretst with proororafWavit of timely
mailing from the letter of March 29, 2018 from this office.
Even though the Rules of this-Court ,require all.non-inkate#TAtea TIT tttttYflaS:
file an original and 10 copies of their petition, this submission is so confusing, that
petitioner is requested to resubmit a singl-e. copy of each petition she. is attempting to file:
at
Court
In a single, brief cover letter, please specify if you are-attempting to file more than
one petition, or if your submission is intended to be a single Petition with multiple
respondents.. If it is a single- case, please give its title as succinctly and accurately-as
possible. If this is a single .case, the title should not vary amonthieover sheets.

Scott S.
By:
Mjehael:Puggam
03:44794625

Enclosures

COVID -19 Pandemic

Exhibit E

SUPREME COURT OF THE UNITED STATES OFFICE OF THE CLERK
WASHINGTON, D. C. 20543-0001

April 17, 2020
SCOTT S. HARRIS

AREA CODE 202
479-3011

CLERK OF THE COURT

GUIDANCE CONCERNING CLERK'S OFFICE OPERATIONS
In light of the ongoing COVID-19 pandemic, the Clerk's Office is providing
guidance on potential impacts of the virus on operations. This guidance will be
updated as new information becomes available.
Modification to Paper Filing Requirements
On April 15, 2020, the Court ordered that for any document filed in a case prior
to a ruling on a petition for a writ of certiorari or for an extraordinary writ, or prior to
a decision to set a direct appeal for argument, a single paper copy of the document
may be submitted on 8'/2 x 11 inch paper. The filer may choose to format the
document under the standards set forth in Rule 33.2 (in which case the page limits of
Rule 33.2 apply), or under the standards set forth in Rule 33.1 but printed on 8% x 11
inch paper (in which case the word limits of Rule 33.1 apply). A single copy of
petitions for rehearing may also be filed on 8% x 11 inch paper as outlined above.
The Court's order of April 15, 2020, also identifies certain categories of
documents that, if filed through the Court's electronic filing system, need not be
submitted in paper form at all. Those categories are: (1) motions for an extension of
time under Rule 30.4; (2) waivers of the right to respond to a petition under Rule
15.5; (3) blanket consents to the filing of amicus briefs under Rules 37.2(a) and
37.3(a); and (4) motions to delay distribution of a cert petition under the Court's
Order of March 19, 2020. These types of filings should be filed electronically in cases
governed by Rule 34.6, although other types of documents in those cases should still
be filed in paper form only. Filers not authorized to file documents through the
Court's electronic filing system should continue to send a single copy of such

—1—

documents to the Clerk's Office.
The Court's order of April 15, 2020, also encourages parties to reach agreement
among each other to serve filings through electronic means only, eliminating the need
for paper service.
Filing Deadlines
On March 19, 2020, the Court extended the deadline to file petitions for writs
of certiorari in all cases due on or after the date of that order to 150 days from the
date of the lower court judgment, order denying discretionary review, or order
denying a timely petition for rehearing. This is the maximum extension allowed by
statute and rule, so the Court will not docket extension requests with respect to cert
petitions covered by this order.
The Court's order of March 19, 2020, also addresses other types of extension
requests in existing cert-stage cases, noting that they will ordinarily be granted by
the Clerk's Office where the request is reasonable and based upon difficulties relating
to COVID-19. The order also authorizes the filing of motions to delay distribution of
a cert petition to allow the petitioner time to file a reply brief; such motions are not
contemplated by the Court's Rules because Rules 15.5 and 15.6 provide that
distribution and consideration of the petition will not be deferred pending receipt of a
reply. Motions to defer distribution of a cert petition in these circumstances may be
presented in the form of a letter to the Clerk under Rule 30.4. At this time, the
Clerk's Office will not send letters to the parties reflecting the result of such Rule
30.4 extension requests, but the results will be reflected on the public docket for the
case in question.
While the Court building is closed to the public in light of COVID-19, this
closure does not itself affect filing deadlines under Rule 30.1.
Case Distribution and Conference Schedules
The Court is continuing to consider cert petitions and other documents at its
regularly scheduled conferences, and order lists addressing the results of those
conferences are also being issued. The schedule for the distribution of petitions for

—2—

conference consideration is also unaffected.
Delivery of Documents to the Clerk's Office
Filings to be hand-delivered to the Supreme Court Building may be directed to
the North Drive on Second Street. Until further notice, all such filings are being
directed first offsite for screening before being delivered to the Clerk's Office. In light
of health concerns relating to COVID-19, the Court is temporarily suspending its
practice of allowing filings delivered to the North Drive in an open container before
2:00 p.m. to be sent to the Clerk's Office on the same day as delivery. It may take up
to two days for documents arriving at the North Drive to be physically delivered to
the Clerk's Office. Parties are strongly encouraged to send filings by mail or
commercial carrier rather than by hand-delivery. In unusual circumstances where
especially fast docketing of a particular document is needed, contact the Clerk's
Office.
Oral Argument
The Court has announced that oral arguments that had been scheduled for the
March and April 2020 argument sessions have been postponed. Some of the cases
that had been scheduled for March and April have been rescheduled for telephonic
argument in May. The remainder of the cases that had been scheduled for March
and April will be scheduled for argument during the October 2020 Term.
Clerk's Office Staffing
While the Clerk's Office remains in operation, staffing in the building is
substantially reduced in order to protect the health and safety of employees. If you
need to speak to someone in the Clerk's Office, please leave a detailed voicemail;
every effort will be made to return calls and emails promptly.

COVID-1 9 and the Speedy Trial Act

Where we are? Court Orders
Preliminary Hearings
Trials
The Basic Law - 18 U.S.C. 3161 and arguments for and against
adjournments
Rule of Professional Conduct 1.2
Remedies for Speedy Trial Issues
Remote Proceeding Considerations

5/18/2020

Where are we now? EDNY
Administrative Order 2020-15
These same concerns, as well as the unavailability of a grand jury sitting in
this District arising from the inability to muster a quorum prior to May 15,
2020, and the suspension of the selection of new grand jurors, make it
"umeasonable to expect return and filing of [an] indictment within the
period specified in section 3161 (b )." 18 U.S.C. § 3161 (h)(7)(B)(iii). As such,
the 30-day time period for filing an indictment under 18 U.S.C. § 3161(b),
which previously had been tolled through April 27, 2020 by Administrative
Order 2020-06, is further tolled until May 15, 2020. See also 18 U.S.C. §
3161(h) (7) (A).

5/18/2020

Where are we now? EDNY
Administrative Order 2020-15
Due to the ongoing exigent circumstances created by the COVID-19
pandemic as outlined herein, in all criminal matters in which a magistrate
judge must conduct a preliminary hearing pursuant to Federal Rule of
Criminal Procedure 5. 1 on or between April 27, 2020 and June 15, 2020,
the time for such hearing set forth in Rule 5.1(c) is further extended to no
later than 60 days after the initial appearance of the defendant.

5/18/2020

Where are we now? SDNY
Order 20 MC 197
All persons working in the jury unit have been ordered to remain home until
governor lifts travel ban and workplace can be made safe
It requires a minimum of four weeks to call together a venire panel
It's prudent to assume it will require more time because there will be a
higher than normal demand for jurors
It's possible that the calling of a new Grand Jury will have to take
precedence over any call for petit jurors
Due to constant changes, judges and parties are having trouble
scheduling jury trials, both civil and criminal

5/18/2020

Preliminary Hearing Dates
Can the preliminary hearing date be waived/adjourned without your client's
consent?
Let's start with the law
18 U.S.C. 3161(b):
Time period for preliminary hearing shall be extended for 30 days if a grand jury was
not in session in the district during the original 30-day period.

18 U.S.C. 3161(h)(7)(A)
Time period can be extended if the court makes a finding that the ends of justice
served by the continuance outweigh the best interests of the public and the
defendant in a speedy trial. But there has to be a finding.
Why is your case different?
United States v. Elms, 20-mj-0036 (CLB) {D. Nev.)

5/18/2020

Preliminary Hearing Dates
US v. Ebanks, 20-mj-204 (RML) (EDNY) - tenacious lawyering by Mildred
Whalen
Fed.R.Crim.P. 48(b)(1) permits dismissal of a complaint by the Court if
unnecessary delay occurs in presenting a charge to the grand jury. This
provision not only allows the Court to dismiss on constitutional grounds, but
also permits the Court to dismiss where the delay is not of a constitutional
magnitude. This rule operates independently of the Speedy Trial Act and is
broader in compass. United States v. Goodson, 204 F.3d 508, 513 (4th Cir.
2000); United States v. Balochi, 527 F.2d 562, 563-64 (4th Cir. 1976) (per
curiam).

5/18/2020

Speedy Trial: Remedies?
Release!
A detention facility therefore violates the Sixth Amendment when it
"unreasonabl[y] interfere[s] with the accused person's ability to consult
counsel." Benjamin v. Fraser, 264 F.3d 175, 185 (2d Cir. 2001).
Can't just wait and make up the time later. (The Court is also unconvinced by
the Government's argument that, because Chandler's trial is likely to be further
delayed due to COVID-19, time preparing for his defense can simply be made
up later.) US v. Chandler, 19 Cr. 867 (PAC) (SDNY)
Gov't's first wave of arguments was that release is not appropriate where
there's not a firm trial date. As time passes, this argument is flipped on its head:
the combination of the Speedy Trial Act and the Sixth Amendment require
release.

5/18/2020

Speedy Trial: Remedies?
Bench Trial (even over government objection)
As the Second Circuit has read Singer, "[o]rdinarily, insisting that a defendant
undergo a jury trial against his will does not run afoul of a defendant's right to
due process and a fair trial. Certainly, we recognize, though, that there might
be cases where the circumstances are so compelling that for the court to
countenance the government's insistence on a jury trial over the defendant's
request to be tried by a judge alone would deny the defendant a fair trial."
United States v. Moon, 718 F.2d at 1218 (citing Singer, 380 U.S. at 37).

5/18/2020

Remote Proceedings
United States v. Harry, No. 19-CR-535,
2020 WL 1528000, at *2 (E.D.N.Y. Mar.
31, 2020) (Irizarry, J.)
[c]riminal punishment impacts the most
fundamental of human rights,
liberty, and there are many important pol
icy reasons why the physical
presence of the defendant at sentencin
g is critically important: to insure
the defendant has the opportunity to (1)
challenge the accuracy of the
information upon which the court is rely
ing; (2) present any mitigating
evidence he may have: and (3) make
a personal statement. Of equal
importance, defendant is entitled to the
effective assistance of counsel
under the Sixth Amendment to the Const
itution, a right that is difficult to
give any meaningful adherence to if def
endant and defense counsel are
not together in the same place at the sam
e time.

5/18/2020

Filing Under Precedence

Exhibit F

July 27, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street, NE
Washington, DC 20543-0001
Re:

No. 19-968, Uzuegbunam v. Preczewski

Dear Mr. Harris:
Pursuant to Supreme Court Rule 30.4, Petitioners and Respondents jointly
request that the time in which to file their respective briefs on the merits in the
above-referenced case be extended for 14 days. The Court granted the petition for
writ of certiorari on July 9, 2020. Absent an extension of time, Petitioners' brief on
the merits would be due on August 24, 2020 and Respondents' brief on the merits
would be due on September 23, 2020. See S. Ct. R. 25.1-2.
Counsel for Petitioners and Respondents seek an extension of time in which
to file their briefs on the merits due to numerous factors, including the weighty
constitutional matters at issue, the press of other litigation deadlines, and the
restrictions currently being experienced due to COVID-19.
Granting Petitioners' and Respondents' joint request for an extension will not
prejudice the Court's ability to schedule oral argument in this case. If the Court
grants a 14-day extension, Petitioners' brief on the Merits would be due on
September 7, 2020, Respondents' brief on the merits would be due on October 21,
2020, and Petitioners' reply would be due on November 20, 2020. Ample time would
still exist for the Court to schedule oral argument in the above-referenced case
during the December 2020 argument session.
For these reasons, Petitioners and Respondents jointly request that the time
in which to file their briefs on the merits in this matter be extended for 14 days.
Respectfully Submitted,
John J. Bursch
John J. Bursch
Counsel for Petitioners

GEORGIA DEPARTMENT OF LAW
CHRISTOPHER M. CARR
ATTORNEY GENERAL

40 Capitol Square SW
Atlanta. Georgia 30334-1300

www.law.ga.gov
(404) 656-3300

February 19, 2020
Honorable Scott S. Harris, Clerk of the Court
Supreme Court of the United States
One First Street NE
Washington, DC 20543-001
RE:

Chike Uzuegbunam, et al. v. Stanley C. Preczewski, et al.
Case No. 19-968

Dear Mr. Harris:
Respondents Stanley C. Preczewski, et al., respectfully request an extension
of time to respond to the petition for a writ of certiorari filed on January 31, 2020.
The response to the petition for a writ of certiorari is currently due on March 4,
2020. Respondents request a 35-day extension to and including April 8, 2020. The
extension is requested due to the press of other matters, including pre-existing
personal and professional commitments.
Sincerely,

/s/Andrew A. Pinson
Andrew A. Pinson
Solicitor General, State of Georgia
cc:

John J. Bursch
Counsel for Petitioners

IN ADDITION:

RE:

Romain. v. United States of America (No. 2017-870)

1.

(4)
In Citizens United v. Fed. Election Comm'n, 558 U.S. 310, 378 (2010)
(Roberts, J., concurring) ("[Stare decisis'] greatest purpose is to serve a
constitutional ideal—the rule of law.

Theresa Romain(Petitioner)
Date: March 22, 2021

(B)

WINSTON
&STRAWN

1700 K Street, NW
Washington, DC 20006
T +1 202 282 5000
F +1 202 282 5100

North America Europe Asia

LLP
STEFFEN N. JOHNSON
202-282-5879
sjohnson@winston.com

March 12, 2018
Scott S. Harris
Clerk of the Court
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Helsinn Healthcare S.A. v. Teva Pharm. USA, Inc., et al.,
No. 17-1229

Dear Mr. Harris:
I am counsel for respondents in the above-captioned case, in which the petition for certiorari was docketed on March 2, 2018, and a response to the petition is
currently due on April 2, 2018.
Pursuant to Supreme Court Rule 30.4, respondents respectfully request a 45day extension of time, to and including May 17, 2018, within which to file a response to the petition. The additional time is warranted due to significant professional obligations in pending matters, including preparation of a reply brief in Pon
v. United States, No. 97-11455 (11th Cir.), a complex Medicare fraud case, and the
briefing of various motions in Radtke v. United States Customs & Border Protection,,
No. 1-17-cv-02412 (D.D.C.), a complex APA dispute under the Jones Act.
The requested extension will allow for the certiorari-stage briefing to be completed and the case conferenced before the Court's summer recess. Counsel of record for petitioner has indicated that petitioner would, not object to a 30-day extension.
Thank you for your attention to this matter.
Si

Ste
cc: Counsel of Record

rely,

N. J

on

Theresa Romain
P. 0. Box 392
Marlboro NY 12542

To: Honorable Scott S. Harris (Clerk of the Court)
Supreme Court of the United States
One First Street NE
Washington, DC 20543-0001
RE: Theresa Romain v. United States of America et al (No. 2017-870)

Dear Sir,
Enclosed is the petition with supporting documents for rehearing for consideration
for Writ of Certiorari.
The petition is presented in good faith and not for delay, it is restricted to the grounds
specified in the question presented and rule 44.2.
Thanks for your undivided attention into this matter.

Theresa Romain(Petitioner)
Date: March 23, 2021

RECEIVED
MAR 2 6 2021
OFFICE OF THE CLERK
SUPREME COURT, U.S.

1.

